      DEPARTMENT OF HEALTH & HUMAN SERVICES                              Office of Inspector General

                                                                        Washington, D.C. 20201




August 5, 2010

TO:            Yvette Sanchez Fuentes
               Director, Office of Head Start
               Administration for Children and Families


FROM:          /George M. Reeb/
               Acting Deputy Inspector General for Audit Services


SUBJECT:       Review of Head Start Health and Safety Standards at Brooklyn Child and Family
               Services, Inc. (A-02-09-02013)


Attached, for your information, is an advance copy of our final report on Brooklyn Child and
Family Services, Inc.’s (the Grantee) compliance with Head Start health and safety standards.
We will issue this report to the Grantee within 5 business days. The Administration for Children
and Families, Office of Head Start, requested this review.

If you have any questions or comments about this report, please do not hesitate to call me, or your
staff may contact Lori S. Pilcher, Assistant Inspector General for Grants, Internal Activities, and
Information Technology Audits, at (202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov
or James P. Edert, Regional Inspector General for Audit Services, Region II, at (212) 264-4620 or
through email at James.Edert@oig.hhs.gov. Please refer to report number A-02-09-02013.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General


                                                                          Office of Audit Services
                                                                          Jacob Javits Federal Building
                                                                          26 Federal Plaza, Room 3900
                                                                          New York, NY 10278



August 9, 2010

Report Number: A-02-09-02013

Ms. Kim Rozzi
Executive Director
Brooklyn Child and Family Services, Inc.
44-60 Rockwell Place
Brooklyn, NY 11201

Dear Ms. Rozzi:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Head Start Health and Safety Standards at
Brooklyn Child and Family Services, Inc. We will forward a copy of this report to the HHS
action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact John Madigan, Audit Manager, at (518) 437-9390, extension 224, or through email at
John.Madigan@oig.hhs.gov. Please refer to report number A-02-09-02013 in all
correspondence.

                                             Sincerely,



                                             /James P. Edert/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Kim Rozzi


Direct Reply to HHS Action Official:

Ms. Carolyn Baker-Goode
Acting Regional Program Manager
Administration for Children and Families
26 Federal Plaza, Room 4114
New York, NY 10278
 Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL




    REVIEW OF HEAD START
HEALTH AND SAFETY STANDARDS AT
     BROOKLYN CHILD AND
     FAMILY SERVICES, INC.




                       Daniel R. Levinson
                        Inspector General

                          August 2010
                         A-02-09-02013
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Within the U.S. Department of Health & Human Services, the Administration for Children and
Families, Office of Head Start (OHS), administers the Head Start and Early Head Start programs.
We refer collectively to both programs as the Head Start program. In fiscal year (FY) 2009,
Congress appropriated $7.1 billion to fund the program’s regular operations. The American
Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), provides an additional
$2.1 billion for the Head Start program during FYs 2009 and 2010.

Brooklyn Child and Family Services, Inc. (the Grantee), provides early learning services to
children up to 5 years of age and families in Brooklyn, New York, through a variety of programs.
For the grant year ended January 31, 2009, OHS awarded approximately $2.56 million in Federal
Head Start funds to the Grantee to provide services to 203 children and pregnant women. On
August 21, 2009, the Grantee also received $142,294 in Recovery Act funding.

OBJECTIVE

Our objective was to determine whether the Grantee complied with applicable Federal and State
requirements on ensuring the health and safety of children in its care.

SUMMARY OF FINDINGS

The Grantee did not fully comply with Federal and State requirements on ensuring the health and
safety of children in its care. Specifically, as of July 2009:

   •   The Grantee’s files showed that the Grantee did not obtain timely criminal background
       checks on 21 of its 36 Head Start employees. The files on the 15 remaining employees
       had all required documents.

   •   The Grantee’s childcare facility did not meet all Federal Head Start and State regulations
       on protecting children from unsafe materials and equipment.

These deficiencies occurred because the Grantee did not have adequate procedures or did not
consistently follow procedures that were in place to ensure that it complied with Federal and
State health and safety requirements. The Grantee’s failure to follow these requirements
jeopardized the health and safety of children in its care.

RECOMMENDATIONS

We recommend that the Grantee develop and consistently follow procedures to ensure that:

   •   all employee files contain documentation of timely criminal background checks and

   •   all unsanitary and unsafe conditions are corrected.

                                                i
GRANTEE COMMENTS

In written comments on our draft report, the Grantee concurred with our findings and described
its completed and ongoing actions to address the deficiencies that we identified. The Grantee’s
comments are included in their entirety as Appendix B.




                                               ii
                                                  TABLE OF CONTENTS

                                                                                                                              Page

INTRODUCTION................................................................................................................1

          BACKGROUND ......................................................................................................1
              Federal Head Start Program ...........................................................................1
              Federal Regulations for Head Start Grantees.................................................1
              Brooklyn Child and Family Services, Inc. .....................................................1
              Office of Inspector General Audits ................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................2
               Objective ........................................................................................................2
               Scope .............................................................................................................2
               Methodology ..................................................................................................2

FINDINGS AND RECOMMENDATIONS ......................................................................3

          CRIMINAL BACKGROUND CHECKS ..................................................................3
               Federal and State Requirements.....................................................................3
               Grantee’s Compliance With Federal and State Requirements .......................3

          MATERIAL AND EQUIPMENT SAFETY .............................................................4
              Federal and State Regulations........................................................................4
              Grantee’s Compliance With Material and Equipment Safety Regulations ...4

          INADEQUATE OR INCONSISTENTLY FOLLOWED PROCEDURES ..............5

          RECOMMENDATIONS ..........................................................................................5

          GRANTEE COMMENTS .........................................................................................5

APPENDIXES

          A: LACK OF COMPLIANCE WITH HEALTH AND SAFETY REGULATIONS

          B: GRANTEE COMMENTS




                                                                    iii
                                        INTRODUCTION

BACKGROUND

Federal Head Start Program

Title VI of the Omnibus Budget Reconciliation Act of 1981 established Head Start as a Federal
discretionary grant program. The major program objectives include promoting school readiness
and enhancing the social and cognitive development of low-income children by providing health,
educational, nutritional, and social services. In 1994, the Head Start program was expanded to
establish Early Head Start, which serves children from birth to 3 years of age. We refer
collectively to both programs as the Head Start program.

Within the U.S. Department of Health & Human Services, the Administration for Children and
Families (ACF), Office of Head Start (OHS), administers the Head Start program. In fiscal year
(FY) 2009, Congress appropriated $7.1 billion to fund Head Start’s regular operations.

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
provides an additional $2.1 billion for the Head Start program during FYs 2009 and 2010. These
funds are intended for activities such as expanding enrollment, funding cost-of-living wage
increases for grantees, upgrading centers and classrooms, and bolstering training and technical
assistance.

Federal Regulations for Head Start Grantees

Pursuant to Federal Head Start regulations (45 CFR § 1304.53(a)(7)), Head Start grantees must
provide for the maintenance, repair, safety, and security of all Head Start facilities. These
regulations also specify that facilities used by Head Start grantees for regularly scheduled,
center-based activities must comply with State and local licensing regulations. Alternatively, if
State and local licensing standards are less stringent than the Head Start regulations or if no State
licensing standards are applicable, grantees must ensure that their facilities comply with the Head
Start Program Performance Standards related to health and safety (45 CFR § 1306.30(c)).

Brooklyn Child and Family Services, Inc.

Brooklyn Child and Family Services, Inc. (the Grantee), a licensed nonprofit organization,
provides early childhood education, housing, adult literacy, and family support services to
children up to 5 years of age and families in Brooklyn, New York. For the grant year ended
January 31, 2009, OHS awarded approximately $2.56 million in Federal Head Start funds to the
Grantee to provide services to 203 children and pregnant women. On August 21, 2009, the
Grantee also received $142,294 in Recovery Act funding.




                                                 1
Office of Inspector General Audits

This audit is one of a series of audits that address the health and safety of children who attend
Head Start programs. We are conducting these audits in response to the $2.1 billion in Recovery
Act funds appropriated for the Head Start program in FYs 2009 and 2010.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Grantee complied with applicable Federal and State
requirements on ensuring the health and safety of children in its care.

Scope

Our review covered the Grantee’s employee records and facility as of July 2009. To gain an
understanding of the Grantee’s operations, we conducted a limited review of the Grantee’s
internal controls as they related to our audit objective.

We performed our fieldwork in July 2009 at the Grantee’s administrative office and childcare
facility in Brooklyn, New York.

Methodology

To accomplish our objective, we:

       •   selected the Grantee based on prior risk analyses and discussions with ACF officials;

       •   reviewed Federal and State laws, regulations, and policies related to Federal grant awards
           and the Head Start program;

       •   reviewed the Grantee’s Head Start application and current grant award documents;

       •   reviewed the Grantee’s files on all 36 current Head Start employees; 1

       •   reviewed the Grantee’s licenses and documentation of fire inspections;

       •   visited the 5 classrooms at the Grantee’s childcare facility; and

       •   discussed our preliminary findings with Grantee and ACF officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain

1
    The 36 current employees were partially or fully funded by the Head Start grant award.


                                                           2
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                FINDINGS AND RECOMMENDATIONS

The Grantee did not fully comply with Federal and State requirements on ensuring the health and
safety of children in its care. Specifically, as of July 2009:

    •    The Grantee’s files showed that the Grantee did not obtain timely criminal background
         checks on 21 of its 36 Head Start employees. The files on the 15 remaining employees
         had all required documents.

    •    The Grantee’s childcare facility did not meet all Federal Head Start and State regulations
         on protecting children from unsafe materials and equipment.

These deficiencies occurred because the Grantee did not have adequate procedures or did not
consistently follow procedures that were in place to ensure that it complied with Federal and
State health and safety requirements. The Grantee’s failure to follow these requirements
jeopardized the health and safety of children in its care.

CRIMINAL BACKGROUND CHECKS

Federal and State Requirements

Pursuant to section 648A(g) of the Head Start Act (42 U.S.C. § 9843a(g)), a Head Start grantee
may not hire an individual on a permanent or nonpermanent basis until it obtains (1) a State,
tribal, or Federal criminal record check covering all jurisdictions where the grantee provides
Head Start services to children; (2) a State, tribal, or Federal criminal record check as required by
the law of the jurisdiction where the grantee provides Head Start services; or (3) a criminal
record check as otherwise required by Federal law.

In New York State, child daycare centers must perform criminal history record checks on
employees and volunteers pursuant to section 390-b.1.(a) of the New York Social Services Law. 2

Grantee’s Compliance With Federal and State Requirements

Our review of the Grantee’s files on all 36 current employees found that the Grantee did not
obtain timely criminal record checks on 21 employees. 3

2
 Child daycare centers in New York were required to perform criminal history records checks on employees and
volunteers hired prior to December 5, 2000, upon applying for license renewal.
3
 The 21 employees comprised the executive director, the deputy director, the program director, the enrollment
coordinator, the health and safety coordinator, the inclusion specialist, 2 financial specialists, 3 teachers, 2 teacher
assistants, 2 assistant caregivers, 3 maintenance workers, 1 mental health specialist, 1 head cook, and 1 assistant
cook.

                                                            3
By not ensuring that all employees who supervised or had routine unsupervised contact with
children met all preemployment requirements, the Grantee potentially jeopardized the safety of
children in its care.

MATERIAL AND EQUIPMENT SAFETY

Federal and State Regulations

Pursuant to Federal Head Start regulations (45 CFR § 1304.53(a)(7)), grantees must provide for
the maintenance, repair, safety, and security of all Head Start facilities, materials, and equipment.
Pursuant to 45 CFR § 1304.53(a)(10)(viii), indoor and outdoor premises must be cleaned daily
and kept free from undesirable and hazardous materials and conditions.

Pursuant to 45 CFR § 1306.30(c), grantees must ensure that Head Start facilities comply with
State and local licensing requirements. If these licensing standards are less comprehensive or
less stringent than the Head Start regulations or if no State or local licensing standards are
applicable, grantees must ensure that their facilities comply with the Head Start Program
Performance Standards related to health and safety.

State regulations (Title 18 § 418-1 of the New York Compilation of Codes, Rules, & Regulations
(NYCRR)) specify requirements for buildings and equipment and for health and safety at child
daycare facilities, including the following:

   •   All matches, lighters, medicines, drugs, cleaning materials, detergents, aerosol cans, and
       other poisonous or toxic materials must be kept in a place inaccessible to children.

   •   Protective caps, covers, or permanently installed obstructive devices must be used on all
       electrical outlets that are accessible to children.

   •   Convenient, adequate, and sanitary toilet facilities must be provided in a separate,
       properly ventilated room readily accessible to children.

   •   Garbage receptacles must be covered and cleaned as needed after emptying.

   •   Suitable precautions must be taken to eliminate all conditions that pose a safety or health
       hazard in areas accessible to children.

Grantee’s Compliance With Material and Equipment Safety Regulations

The Grantee’s childcare facility did not meet all Federal Head Start and State health and safety
regulations on protecting children from unsafe conditions. Our visit to the Grantee’s facility
found deficiencies in three of the five classrooms, which we reported to the Grantee after
completion of our fieldwork. Specifically:

   •   In two classrooms, electrical outlets lacked protective caps (Appendix A, Photograph 1).


                                                 4
   •   A children’s bathroom had no toilet paper (Appendix A, Photograph 2).

   •   In two classrooms, garbage receptacles were not covered (Appendix A, Photograph 3).

   •   In two classrooms, carpets were not secured to the floor and presented a tripping hazard
       (Appendix A, Photograph 4).

   •   In one classroom, a bingo marker with a warning label that stated “KEEP AWAY FROM
       CHILDREN” was left in an area accessible to children (Appendix A, Photograph 5).

By not ensuring that all facilities were kept free from unsafe conditions, the Grantee jeopardized
the safety of children in its care.

INADEQUATE OR INCONSISTENTLY FOLLOWED PROCEDURES

These deficiencies occurred because the Grantee did not have adequate procedures or did not
consistently follow procedures that were in place to ensure that it complied with Federal and
State health and safety requirements.

RECOMMENDATIONS

We recommend that the Grantee develop and consistently follow procedures to ensure that:

   •   all employee files contain documentation of timely criminal background checks and

   •   all unsanitary and unsafe conditions are corrected.

GRANTEE COMMENTS

In written comments on our draft report, the Grantee concurred with our findings and described
its completed and ongoing actions to address the deficiencies that we identified. The Grantee’s
comments are included in their entirety as Appendix B.




                                                5
APPENDIXES
                                                                 Page 1 of 3


    APPENDIX A: LACK OF COMPLIANCE WITH
      HEALTH AND SAFETY REGULATIONS




Photograph 1 – Taken in a classroom on 7/13/2009 showing
an uncovered electrical outlet.




Photograph 2 – Taken in a bathroom on 7/13/2009 showing
an empty toilet paper dispenser. No additional rolls of toilet
paper were readily available.
                                                           Page 2 of 3




Photograph 3 – Taken in a classroom on 7/13/2009 showing
an uncovered garbage receptacle.




Photograph 4 – Taken in a classroom on 7/13/2009 showing
carpet not secured to the floor.
                                                           Page 3 of 3




Photograph 5 – Taken in a classroom on 7/13/2009 showing
a bingo marker accessible to children that was labeled
“KEEP AWAY FROM CHILDREN.”
                                                                                                     Page I of 8


                  APPENDIX B: GRANTEE COMMENTS 





                  ®      BrOOklyn ChUd And Family Services
                                      44-60 Rockwell Place
                                       Brooklyn, NY 11201
                                                                       l1.
July 13, 2010

James P. Edtr!
R.eglonallnspector General for Audit Services
Office of Inspector general
Office of Audi t ~rvices
Jacob Javits Federal Building
26 Federal Plaza - Room 3900
New York, NY 10278




Re port Number - A02·Q9·02013




Oear Mr. Edert,

Brooklyn Child and Family Services (BeMS), in accordance with the required response to the
Department of Health & Hum,m Services Office of the Inspector General's findif'lgs in relat ion to
th e above captioned report number, submits the detailed response for you to review.

t assumed the role of Executive Director at Brooklyn Child aocl Family Services in March 2010.
Therefore I have interviewed staff members who were present at the tim e of the review and
compiled the attached information to address the findings in this report .
                                                                                                       Page 2 of8




 CRIMINAL BACKGROUND CHECKS




Federill ilnd State Regulations



Pursuan t to section 648A(g) of Ihe Head Start Act (U.s.C. $ 9843(g), a Head Start granlee may
not hire an individual on a permanent or non permanent basis until it obtains (l)a State, tribal ,
or Federal criminal check covering aU jurisdictions where gran tee provides Head St art services to
children;(2) a State, tribal, or Federal criminal record check as required by the law of the
jurisdiction where the grantee provides Head Start services; or (3) a criminal record check as
otherwise requi red by federal law.

In New York State, child day care centers must perform criminal history reco rd checks on
employees and volunteers pursuant to section 390-bl. (a) of the New York Social Services Lilw.



Finding
A revi ew of the Grantee's files on all 36 cu rrent employees found that the Grantee did not
obtilin timely criminill record checks on 21 employees.



Response:
Per your finding you indica ted that, Brooklyn Child and Family Services did no t ob tain timely
criminal background checks on 21 of its 36 Head Start I"mpioyees.

In an interview with the HR specialist, and other staff who were present at the time, I confirmed
that The Grantee's chlldcare filctlfty did not meet all Federal Head Start ilnd State health and
safety regul ations on protfi:Ung children from unsa fe conditions. Becausl" of several long term
vacancies employees were hired prior t o a criminal background check been com pleted.
We no te t hat manilgement has instituted measures to ensure that all potential employees
received the appropriate SCR screening prior to their hiring, however, Offer letters to the
employees were made prior to the dearance. The gra ntee did have adequate procedures in
place to perform crimi nal rfi:o rd checks but did not follow these procedures during the period
prior to in these deficiencies. The reason Identified was the need t o fill numerous long term
vacancies ~t the Agency.




                                                                                                   2
                                                                                                                      Page 3 of8




          BCAFS Action t o Remedy The Sit uation
          To date Brooklyn Child and Family Services has a consiste nt and established procedure to
          ensure that all empl oyee files contain documentation of timely criminal backg round checks.

BCAFS Action to Remedy Area
of Deficiency                      St aff Responsible         TlmeUnes                   Supporting
                                                                                         Documentation
 As of August 2009 no employee     HR Specialist              Policy and procedures      a roster which is
is hired with out proper                                      w ere created in           checked on a monthly
documentiltion                                                August 2009                basis to ensure
                                                                                         compli~nce with all
                                                                                         necessary Information
                                                                                         as requ ired by
                                                                                         regulatory
                                                                                         requirements.




         MATERIAl AND EQUIPM ENT SAFETY

         Federal and State Regu l ations

         PUr5uant to Federal Head Start regulations (45 eFR & 130453 (a) (7), grantee must provide for
         main t enance, repai r, safety, and security of all Head St art facilit ies, materials, and equipment.
         Pursuant to 4S eFR & 1304.S3(a) (10) (viii), indoor and ou td oor premises mus t be cleaned daily
         and kept free from undesirable and hazardous material and conditions.

         Pursuant to 45 CFR & 1306.30e, grantees must ensure that Head Start facilities comply w ith
         State and local licensing requiremen t s, If these licensing standards are less comprehensive or
         less stringen t than Head Start regulations or if no St ate or local licensing standards are
         applicable, grantees must ensure that their facilities comply w ith Head Start Program
         performance Standards related to health and safety.

         State regulations (Title 18 $ 4 18·1 of the New York Compilat ion of Codes, Rules, & Regula tions
         (NVCRR) specify requirements for buildings and equipmen t and fo r health and safety at ch ild
         daycare facilities, including the followlnll :




                                                                                                                  J
                                                                                                         Page 4 of 8




    • 	 All matches, lighter, medicines, drugs, cleaning ma terials, detergents, aerosol cans, and
        ot her poisonous or tOKic materials must be kept in a place Inaccessible to children.
    • 	 Pro tectivl! caps, covefli, or permanently Installed obstructive devices" must be used on
        all electrical outlets that are accessible to children.
    • 	 Convenient, adequate, and sanitary toilet facilities must be provided in a separate,
        pro~rlv ventilated room readily accessible to children.
    • 	 Garbage receptacles must be covered and cleaned as needed after emptying.
    • 	 Suitable precautions must be taken to eliminate all conditions that pose a safety or
        health hazard In areas accessible to children.




Grantee's Compliance with Material and Equipment Safety Regulations 

The Grantee's childcare facility did not meet all Federoill Heoild Start and State health and safety 

regulations on protecting children from unsafe conditions. Our visit to the Groilntee's facility 

found deficiencies in three of five classrooms, which we reported to the Grantee after 

completion of Our fieldwork. 





Response: 

In Interviews with the Health and Sa fety coord inator and Maintenance staff confirmed the 

accuracy of the findings. It has been reported that immediately after the field inspection the 

following has taken place. Specifically: 


    • 	 In two cl assrooms, electrical outlet s lacked prote ct ive ca ps (AppendiK, Photograph 1).




                                                                                                    4
                                                                                                                Page 5 of8




 BCAFS Action to Reme dy Area of       Staff Res ponsible          Timelines                Supporting
           De ficiency                                                                      Doc::umentation
                                       Health imd Safety
S"fety Caps were placed in the         Coord inator will monitor   Immediately              SCAfS Classrooms
two ele(:trica l oullelS In the        classrooms weekly                                    Electrical Outlets Check
classrooms.                                                                                 list

A po licy and procedure for
replacing safely caps in electrica l   feE Oiredor will monitor    A   new procedure was
outlets after they are used by the     classrooms mon thly         Implemen ted after the
staff we re designed and gill(>n to                                July 2009 Visit
the teachers as well as placed in
all classrooms.

Health and Safety Coordina t or
will monito r Head Slart and Ea rly
Head Start Clanrooms on a
weekly basis to ensure that all
electrical outlets ha ve safety caps
inserted into them tightly.

feE Director will also monitor th~
classrooms on a monthly basis to
ensure that when the teachers
used the electrica l ou tlets, they
replaced the safety ups tightly
Into the electrical outl ets.




                                                                                                        5
                                                                                                               Page 6 of 8




              A children's bathroom had no toilet paper (Appendix, Photo8 rap h 1).


BCAfS Action t o Re medy Area of      Staff Responsi ble      Timelines               SUPportinl Dotu mentatio n
Deficienev

The maintenance st aff has            Maintenance Staff       Daily and on goinS      SCAFS Bathroom Supplies Daily
replaced toilet tissue in the         will monitor                                    Ch eck List
bathroom Immediately aft er they      Classrooms'
were Instructed.                      ba t hrooms dally

The maintenance slaff will monitor    Maintena nce
all classrooms bathrooms three        Supervisor
l imes daily to ensure all
Dathrooms are fully stocked with
needed supplies.

Maintenance Supervisor wil!
monitor all bathrooms on a dally
basis to ensure all supplies are in
place.




                                                                                                        6
                                                                                                                 Page 7 of8




           In two clilssrooms , I ilrbille receptilc'eS were not cove red (Appendix, Photograph 3)

9CAFS Action to Remedy Area
of Deficiency                       Stilff Responsible       Tim elines               Supporting
                                                                                      Documentation
The garbage receptacles lids        Health and Safety        Daily and on-going       8C.AFS Garbage
were placed back on Ihe garbage     Coordina tor will                                 Recepl ilcles lids check
containe r .                        monitor daily            A new procedure was      list
                                                             implemented after
A policy and procedure was          ECE Director will        the July 2009 Visil
implemented for garbage             monitor weekly
receptacles lid to remain on
garbage receptacles at all times
in the claurooms.

Teachers must replace lids on      Teac hers daily and on
garbage receptacles after they     going
emp tied food in to the garbage
container on a daily basis.



           In two clilssrooms, carpets were not setured to the floor and presenl ed a tripping ha zard
           (Appendix, Photograph 4).

BCAFS Attion to Remedy Area        Staff Responsible        Timelines                 SlJpporting
of Deficiency                                                                         Documentation
The carpelS were taped down on     Maintenance Staff        Daily and On -going       BCAFS Classroom
the floor by the maintenance       will ch eck daily                                  Carpet safety
staff.                                                                                Checklist

The main te nance Supervisor       Maintenance
conducts weekly check in the       Supervisor conducts
classroom s to endure the taped    weekly classroom
carpets are secured and not in a   Inspections
trip hazard condition.

The Health and Safety              Health and Safe ty
Coordinator also inspect the       Coordinator will
classrooms on a monthly basis to   monitor I he carpets
ensure all rugs are well secure    monthly and on going
on the floor.




                                                                                                           7
                                                                                                             Page 8 of8




            In one classroom, a bingo marker with a wa rni ng label that stat ed " KEEP AWAY from
            CHILDREN'" was left In an area accessible to children. (Ap pendi., Photograph 5).

BCAFS Action to Remedy Area          Staff Responsible      Timelines                Supporting
of Deficlenev                                                                        Documentation
Tht Bingo marker was removtd         Health and Safety      Dally and on going       BCAFS Hazard Free
from the floor out of the reach      Coord inato r                                   Materials Classroom
of children immediately.                                                             Check List

The Health ind Safety
Coordinator conducts Weekly
classroom checks to ensure all
items are sa fe and that there Is
no unsafe and haznd item in the
reach of children.

All chemicals ind unsafe items       ECE Director
are locked iWiY in the cab inets
and closets under lock ind ke}'1:,
which is held by the ECE
Director.
                                     Maintenance
All chemicals that are locked        Supervisor
iway in the store rooms and are
labeled as weir.




              We understand that these area s noted based upon original review of the Grantee
              facitity in July 2009. During the time following, and therea ft er the agency has
              undergone transition, personnel changes, and improvements. At this t ime we ar e
              extre mely confident that we are moving in the right direction and w ill continue to
              meet t he needs of the child r en, parent s, and families with you r con tinued support.
              please feel free to contact me if you have any quest ions at (718)330.0845

              Best Regards,


          c:d'trl{,)/' 

              Executive Director




                                                                                                         8
